<html>
<title> - MODERNIZING THE GI BILL WEDNESDAY, MARCH 15, 2006 U.S. HOUSE OF REPRESENTATIVES, COMMITTEE ON VETERANS' AFFAIRS, Washington, D.C. The Committee met, pursuant to call, at 10:35 a.m., in Room 334, Cannon House Office Building, Hon. Steve Buyer [Chairman of the Committee] presiding. Present: Representatives Buyer, Bilirakis, Michaud, Boozman, Snyder, and Salazar. THE CHAIRMAN. The House Veterans' Affairs Committee will come to order, date March 15, 2006. Today we will receive testimony regarding how well the current Montgomery GI Bill is meeting both the servicemembers' needs as well as the needs of our nation. Our witnesses are the leaders of the National Guard and Reserve components whose members benefit from this very important program. The Committee's goal for this hearing is to learn what is working and what may need to be changed. At the hearing during which Secretary Nicholson presented the President's fiscal year 2007 budget, I announced my support for the modernization of the GI Bill and noted that the Partnership for Veterans Education and the Independent Budget have put forth several concepts for our consideration. Since then, my staff and Lane Evans' staff have met with key stakeholders to begin the process of designing and moving a bipartisan bill that will meet what I see as two primary goals: first, to make the GI Bill more flexible in the types of education and training available to all eligible veterans; and second, to adjust the program to make it more useable for members of the National Guard and Reserves while maintaining its value as a recruiting and retention tool. A modernized GI Bill must both help the veteran and the nation. According to the VA, about 30 percent of our active-duty servicemembers never use the GI Bill. VA's usage data on members of the Guard and Reserves is less detailed, but they were paying Section 1606 benefits to about 59,000 as of January 2005, with 81,000 expected to participate this year. The VA says they have about 13,000 applicants for Section 1607 benefits on hand and expect over 50,000 by the end of 2007. Many members do not use their GI Bill although they have paid their $1,200 because even with the current level of benefits, they cannot afford to go to college for four years while raising their family. This is at a time when the Department of Labor has identified career fields that are critically short of qualified employees. One reason for this disconnect is that the current GI Bill focuses largely on degree-granting programs at the expense of short-term training opportunities that could meet some of these critical shortfalls. My vision of a modernized GI Bill is one that would address both national competitiveness and personal success issues by significantly increasing the number of veterans who use their benefits and that includes members of the National Guard and the Reserve. One way I would like to do this is by making it easier for the veteran with a family to get short-term training to qualify for a job in good-paying fields that do not require degrees, such as transportation, construction, medical care, public safety, et cetera. I also want to help members of the Guard and Reserves finish their education after they leave the service if they have not been able to do so while meeting their military commitment. They should not lose their education benefits following such honorable service. Now, this will not be an easy task. You may have heard that an informal estimate of the cost for the concepts being proposed by the Partnerships for Veterans Education was $4.5 billion over ten years. Some of the cost is due strictly to accounting rules and some is due to providing improved education benefits for a member of the Guard or Reserves following discharge. I need not remind the officers here along with the senior executives on this panel that your men and women are no longer the weekend warriors. General Abrams' vision of the total force is now reality, with the Guard and Reserve forces as full partners in the War on Terror. I think it is now time to make them full partners in a modernized GI Bill in a way that meets the needs of the military and the nation. Today I have asked each of you as leaders representing the military forces to help with the heavy lifting. We need to hear whether you think a modernized GI Bill is needed to help you accomplish your mission. This hearing on the GI Bill is the beginning of that process and the opportunity to give us your candid views will be very much appreciated. [The statement of Steve Buyer appears on p. 40] THE CHAIRMAN. We ask the Committee for unanimous consent for an opening statement on behalf of Lane Evans be submitted for the record along with Stephanie Herseth. Hearing no objection, so ordered. [The statement of Lane Evans appears on p. 44] THE CHAIRMAN. All members are advised if you have an opening statement, it may be submitted for the record. If you would like to do an opening statement at this point, I will be more than pleased to yield prior to</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
MODERNIZING THE GI BILL


WEDNESDAY, MARCH 15, 2006

U.S. HOUSE OF REPRESENTATIVES,     
COMMITTEE ON VETERANS' AFFAIRS,
Washington, D.C.

	The Committee met, pursuant to call, at 10:35 a.m., in Room 334, Cannon 
House Office Building, Hon. Steve Buyer [Chairman of the Committee] presiding.
	Present:  Representatives Buyer, Bilirakis, Michaud, Boozman, Snyder, and 
Salazar.

	THE CHAIRMAN.  The House Veterans' Affairs Committee will come to order, 
date March 15, 2006.
	Today we will receive testimony regarding how well the current Montgomery 
GI Bill is meeting both the servicemembers' needs as well as the needs of our 
nation.
	Our witnesses are the leaders of the National Guard and Reserve components 
whose members benefit from this very important program.
	The Committee's goal for this hearing is to learn what is working and what 
may need to be changed.
	At the hearing during which Secretary Nicholson presented the President's 
fiscal year 2007 budget, I announced my support for the modernization of the GI 
Bill and noted that the Partnership for Veterans Education and the Independent 
Budget have put forth several concepts for our consideration.
	Since then, my staff and Lane Evans' staff have met with key stakeholders 
to begin the process of designing and moving a bipartisan bill that will meet 
what I see as two primary goals:  first, to make the GI Bill more flexible in 
the types of education and training available to all eligible veterans; and 
second, to adjust the program to make it more useable for members of the 
National Guard and Reserves while maintaining its value as a recruiting and 
retention tool.
	A modernized GI Bill must both help the veteran and the nation.  According 
to the VA, about 30 percent of our active-duty servicemembers never use the GI 
Bill.  VA's usage data on members of the Guard and Reserves is less detailed, 
but they were paying Section 1606 benefits to about 59,000 as of January 2005, 
with 81,000 expected to participate this year.
	The VA says they have about 13,000 applicants for Section 1607 benefits on 
hand and expect over 50,000 by the end of 2007.
	Many members do not use their GI Bill although they have paid their $1,200 
because even with the current level of benefits, they cannot afford to go to 
college for four years while raising their family.  This is at a time when the 
Department of Labor has identified career fields that are critically short of 
qualified employees.
	One reason for this disconnect is that the current GI Bill focuses largely 
on degree-granting programs at the expense of short-term training opportunities 
that could meet some of these critical shortfalls.
	My vision of a modernized GI Bill is one that would address both national 
competitiveness and personal success issues by significantly increasing the 
number of veterans who use their benefits and that includes members of the 
National Guard and the Reserve.
	One way I would like to do this is by making it easier for the veteran 
with a family to get short-term training to qualify for a job in good-paying 
fields that do not require degrees, such as transportation, construction, 
medical care, public safety, et cetera.
	I also want to help members of the Guard and Reserves finish their 
education after they leave the service if they have not been able to do so while 
meeting their military commitment.  They should not lose their education 
benefits following such honorable service.
	Now, this will not be an easy task.  You may have heard that an informal 
estimate of the cost for the concepts being proposed by the Partnerships for 
Veterans Education was $4.5 billion over ten years.  Some of the cost is due 
strictly to accounting rules and some is due to providing improved education 
benefits for a member of the Guard or Reserves following discharge.
	I need not remind the officers here along with the senior executives on 
this panel that your men and women are no longer the weekend warriors.
	General Abrams' vision of the total force is now reality, with the Guard 
and Reserve forces as full partners in the War on Terror.  I think it is now 
time to make them full partners in a modernized GI Bill in a way that meets the 
needs of the military and the nation.
	Today I have asked each of you as leaders representing the military forces 
to help with the heavy lifting.  We need to hear whether you think a modernized 
GI Bill is needed to help you accomplish your mission.
	This hearing on the GI Bill is the beginning of that process and the 
opportunity to give us your candid views will be very much appreciated.
	[The statement of Steve Buyer appears on p. 40]

	THE CHAIRMAN.  We ask the Committee for unanimous consent for an opening 
statement on behalf of Lane Evans be submitted for the record along with 
Stephanie Herseth.
	Hearing no objection, so ordered.
	[The statement of Lane Evans appears on p. 44]

	THE CHAIRMAN.  All members are advised if you have an opening statement, 
it may be submitted for the record.  If you would like to do an opening 
statement at this point, I will be more than pleased to yield prior to hearing 
from the panel.
	[The statement of Corrine Brown appears on p. 48]

	[The statement of Silvestre Reyes appears on p. 47]

	THE CHAIRMAN.  Yes, sir.
	MR. SALAZAR.  Thank you, Mr. Chairman, for holding this important hearing 
today.  I know that in my heart that every member of this Committee is eager to 
start work on modernizing the GI Bill of Rights and the GI Bill for our military 
men and women.
	For years, the GI Bill has served our men and women in uniform very well.  
As a matter of fact, I went to college on the GI Bill.  It has helped countless 
veterans gain access to the higher education system in the country.  In fact, 
like I said, I utilized the GI Bill when I returned home from the Army in the 
1970s.
	The face of our military is changing as the Chairman clearly stated.  The 
Reserve and the Guard are no longer weekend warriors.  And this Congress has had 
the foresight to make important steps towards recognizing the contributions that 
the Reserve component makes to the force structure of the United States 
military.
	The addition to the Chapters 1606 and 1607 of Title 10 improve access to 
the GI Bill benefits for our Guard and Reservists.  But in my opinion, they do 
not go far enough.  My son just ETS'd from the National Guard and had quite a 
bit of trouble getting the GI benefits that I think he deserved.
	I support opening up the GI Bill to truly update, modernize, and provide 
greater flexibility to the educational benefits extended to our military service 
personnel.  I am eager to work with my colleagues in this Committee, our friends 
in the Armed Forces Services Committee, the Executive Branch, and the military 
and veterans service organizations to accomplish this important goal.
	Our men and women have earned the benefits granted to them in the GI Bill.  
Now it is time to ensure that the benefit reflects the structure of the force 
that is distributed equitably across the diverse groups that make up our active 
duty, Guard, and Reserve components of the United States military.
	I look forward to hearing your testimony today of the various military 
branches as well as representatives of the Secretary of Defense.
	Again, Mr. Chairman, I thank you for holding this important hearing.  I 
think it is critical that we address the needs of our Guards and Reservists as 
we have in the past for regular Army or those who are active.
	Thank you very much.
	THE CHAIRMAN.  Thank you, Mr. Salazar.
	[The statement of John Salazar appears on p. 49]

	THE CHAIRMAN.  Chairman Boozman.
	MR. BOOZMAN.  Thank you, Mr. Chairman.  I appreciate you and Mr. Evans' 
leadership on this very important issue.
	I want to remind the members that Ms. Herseth and I will be continuing the 
fact-finding process by holding a field hearing in Arkansas next week.  We will 
have several members of the Arkansas National Guard testify as well as State and 
Federal officials responsible for administering education benefits.  We will 
also visit the Muskogee Regional Process Office in Oaklahoma to review how they 
are handling the claims for education benefits.
	I am looking forward to bringing to the Committee a GI bill, under the 
Chairman's and Ranking Member's guidance, that once again will be the premier 
education benefit in America.
	Thank you.
	THE CHAIRMAN.  Thank you very much.
	All right.  We will turn to our only panel witnesses today.  From left to 
right, we will hear from Secretary Tom Hall.  He is the fourth Assistant 
Secretary of Defense for Reserve Affairs and has served in this position since 
he was sworn in October 9th of 2002.
	Next we will then hear from Mr. Bill Carr.  He is the Acting Deputy Under 
Secretary of Defense for Military Personnel Policy.  He oversees the recruiting, 
retention, compensation, and related human resource management for all active-
duty members of the United States Armed Services.
	We will then hear from Lieutenant General James R. Helmly, the Chief of 
the Army Reserve, Commanding General, U.S. Reserve Command.
	We will then hear from Lieutenant General John A. Bradley, the Chief of 
the Air Force Reserve Headquarters, United States Air Force, Washington, D.C., 
and Commander of the Air Force Reserve Command, Robins Air Force Base, Georgia.
	Next we will then hear from Lieutenant General John W. Bergman, who is the 
Commander of the Marine Forces Reserve, Marine Forces North.
	We will then hear from Rear Admiral Craig O. McDonald, who is the 
Commander of the Naval Reserve Forces Command.
	We will then hear from Major General Ronald G. Young, the Director of 
Manpower and Personnel.  He is the J1 of the National Guard Bureau.  In 
addition, he is currently serving as the Acting Director of the Joint Staff for 
the National Guard Bureau as of May 1st, 2005.
	And then last, we will hear from Rear Admiral Sally Brice-O'Hara, who is 
the Director of the Reserve and Training for the United States Coast Guard.
	Secretary Hall.
	MR. HALL.  Yes, sir, Mr. Chairman.
	We do not have a cast of thousands, but we have a cast of seven.  So I 
would ask a couple of requests, that all of our written statements be entered 
into the record.
	THE CHAIRMAN.  They will be entered in the record.  So ordered.
	MR. HALL.  And second, we have discussed and propose that I give an 
opening oral statement on behalf of all of us.  And then if any of the members 
wish to say anything of the panel, they can.  But I would make a statement and 
then get right to the questions, if that is satisfactory.
	THE CHAIRMAN.  Having just taken your recommendation under advisement, 
what I would recommend is that we will hear your opening statement.
	Dr. Snyder.
	DR. SNYDER.  I always just hang on your every word.  My first reaction is 
they have brief written statements.  I would expect their oral statements would 
also be brief, and I think there could be value in hearing from them.  I think -
- 
	MR. SALAZAR.  I am thinking that same way, yes.
	THE CHAIRMAN.  Well, I took it under advisement for at least nine seconds.
	MR. HALL.  I was just attempting to save time.  We are happy to do 
whatever you want.
	THE CHAIRMAN.  Well, I understand that.  Let's go ahead and hear your 
opening statement and then we are going to go right down the line.  Each of 
these officers, I am sure, have something to say.
	MR. HALL.  Yes, sir.
	THE CHAIRMAN.  So we would like to hear from each of them.
	Secretary Hall, you are recognized.

STATEMENTS OF THOMAS F. HALL, ASSISTANT SECRETARY OF DEFENSE FOR RESERVE 
AFFAIRS; ACCOMPANIED BY	WILLIAM J. CARR, ACTING DEPUTY UNDER SECRETARY 
OF DEFENSE, MILITARY PERSONNEL POLICY; JAMES R. HELMLY, CHIEF, ARMY RESERVE 
AND COMMANDING GENERAL, UNITED STATES ARMY RESERVE COMMAND; JOHN A. BRADLEY, 
CHIEF OF AIR FORCE RESERVE; JOHN W. BERGMAN, COMMANDER, MARINE FORCES RESERVE; 
RONALD G. YOUNG, ACTING DIRECTOR, MANPOWER AND PERSONNEL, NATIONAL GUARD 
BUREAU; CRAIG MCDONALD, COMMANDER, NAVY RESERVE FORCES COMMAND; SALLY 
BRICE-O'HARA, DIRECTOR OF RESERVE AND TRAINING, UNITED STATES COAST GUARD 
RESERVES

STATEMENT OF THOMAS F. HALL

	MR. HALL.  Mr. Chairman and members of the Committee, thank you for giving 
us the opportunity to come before you this morning to discuss Montgomery GI Bill 
for the Selected Reserve and the Reserve Education Assistance Program.
	The Montgomery GI Bill was established to encourage membership in Selected 
Reserve units.  It has proven to be an extremely valuable recruiting tool, a 
highly effective retention tool for the Reserve components.
	The Montgomery GI Bill is very well known amongst the Reserve component 
members and has helped the components achieve and maintain their strength 
requirements.
	The fact that a member must continue to serve in a Reserve component to 
maintain eligibility is important and has greatly assisted the Reserve 
components in maintaining consistently high retention rates over the years. 
	It has also obviously increased the educational level of our Reserve 
forces.
	Between 1984 and 2005, almost 1.5 million Selected Reserve members gained 
eligibility for the Montgomery GI Bill entitlement and nearly 40 percent have 
applied for educational assistance.  In fiscal year 2005 alone, almost 200 
million in benefits was paid to Selected Reservists.
	It continues to fulfill its intended purposes as four of the six 
Department of Defense Reserve components are meeting or exceeding their 
recruiting goals thus far for 2006.  Retention in all of the Reserve components 
is very strong and overall attrition is very consistent with historic levels.
	The Reserve Education Assistance Program has been implemented and is 
working well.  As of February of this year, almost 14,000 benefit claims have 
been received and over $1.5 million in claims paid.
	Ongoing changes to electronic data system will greatly improve the 
application process and accelerate the benefit delivery procedures.
	A joint Department of Defense and Department of Veteran Affairs working 
group is currently examining the possibility of a total force education benefit 
that would draw from the best attributes of the two Montgomery GI Bill programs 
and the REAP.
	We are actively participating in that forum and we encourage any 
discussions that examine overall program performance and identify opportunities 
for improvements that meets the needs of veterans, Reserve component members, 
and the department.
	As we work towards program improvement, we need to stress that the veteran 
and Reserve programs were designed for and serve different purposes.  Both 
Reserve benefits, the Montgomery GI Bill Selected Reserve and the REAP Program, 
were designed as retention tools to keep members serving in the Guard and 
Reserve.
	The veteran benefit, although it can be used by someone still serving, was 
designed to assist members in transitioning to civilian life following service.
	As we examine the potential for a total force GI Bill, we want to be 
certain that such a program would encourage continued Reserve membership as 
effectively as the current programs.  We should be very careful in changing the 
basic premise of the Montgomery GI Bill Selected Reserve and the REAP.
	We look forward to working with this Committee and the Armed Services 
Committees of the House and Senate to ensure that these programs remain robust.
	And I would again like to thank this Committee for all you have done for 
all of our servicemembers.  Thank you, Mr. Chairman.
	[The statement of Thomas F. Hall appears on p. 50]

STATEMENT OF BILL CARR

	MR. CARR.  Thank you, Mr. Chairman.
	As Chairman Buyer mentioned, I am Bill Carr.  I represent the active 
component and the military HR life cycle of recruiting, compensation, and 
retention of course, an important part of that is the Montgomery GI Bill.
	If we asked young people today the reason that they would serve in the 
military or elect to join, it ranges from service and patriotism to an ability 
to advance into future.  And if you then broke those out, you would find that 
considerably more are interested in carefully advantaging their future.
	The Montgomery GI Bill figures squarely in their decisions.  The 
enrollment rate is 97 percent, so it is that important to them.  The utilization 
rate for those who complete their obligation and are eligible is 70 percent.  In 
fact, among those who have separated in the past couple of months, 58 percent 
are already enrolled in some fashion and using their benefits.
	So the Montgomery GI Bill figures squarely in our recruiting, our 
retention, and our transition, and has been invaluable to us in manning and 
sustaining the active force.
	Thank you, Mr. Chairman.
	[The statement of William J. Carr appears on p. 58]

STATEMENT OF GENERAL JAMES R. HELMLY

	GENERAL HELMLY.  Good morning, Mr. Chairman.  I am Ron Helmly.  I am an 
American solider and I am proud to serve in that capacity.
	Clearly this hearing comes at an opportune time as we face the first 
extended duration conflict using an all-volunteer force, both active and Reserve 
component.  For the first time since the Korean War, we are mobilizing numbers 
of Reserve component members in an unprecedented way.  We are looking at repeat 
as we look at the "long war."
	And we have to prepare in a strategic sense for a continuation of that and 
we must be always mindful, as Mr. Carr reminded us, that we should not just pile 
on extra benefits to the extent that we would equal those that entice enlistment 
and service in the regular components of our various services.  So we believe 
that educational benefits are a major draw for both recruitment and retention.
	Clearly Chapter 1606 was a welcome addition, but I am mindful of the fact 
that it was added to an existing measure.  And that is why I welcome this 
hearing today and your efforts in this Committee to look at this afresh in terms 
of a total force Montgomery GI Bill that provides important educational benefits 
for active and Reserve component members without just being added to.
	Lastly, I would like to point out that one of the frustrations that I have 
experienced as we have enjoyed such immense support from not only this Committee 
but elsewhere throughout the Congress to support our members is the fact that 
our policies, practices, procedures, and systems which underpin the authorities 
this Committee and others provide us and the measures you provide us have not 
kept pace.
	Thus, as we mobilize soldiers, they go to theater, they are wounded, 
evacuated for nonwounds, but illnesses or injuries, et cetera, knowing their 
amount of service and under what capacity they served is terribly important to 
ensure that we do not have people who fall through the crack and are actually 
entitled to benefits that the bureaucracy says they are not.
	So I would urge your support for those measures so that we can ensure that 
what you provide us we are able to provide in a timely, accurate way.
	Thank you for the opportunity to be here today.
	The Chairman.  Thank you.
	[The statement of James R. Helmly appears on p. 63]



	THE CHAIRMAN.  Lieutenant General Bradley.

STATEMENT OF GENERAL JOHN A. BRADLEY

	GENERAL BRADLEY.  Sir, I am John Bradley, Chief of Air Force Reserve.  
Thank you for holding this hearing on this very important issue.  Thank you for 
your leadership and the other members who are interested in helping the members 
of our Armed Forces.
	This GI Bill is a very important tool for us in the Reserve components, I 
believe, for recruiting and retention.  It does help us in recruiting and it 
certainly helps us in retention.  It has over time, I think, degraded somewhat 
based on the amount that a Reservist or Guardsman may receive relative to what 
an active servicemember receives because of some things.  So the dialogue here 
on that issue would be important.  And so it is not quite the benefit that it 
used to be.
	There also have been proposals that might make it last a longer period of 
time than what we have had in the past.  I think what would be helpful, and 
Secretary Hall has recommended this, to use it as a real retention tool is let  
this last longer than 14 years.  Take it to 20- or 25-year point so that I can 
continue to encourage people to stay with us.
	Now, I am fortunate today in that the Air Force Reserve retention is at an 
almost all-time high.  I attribute that to our airmen's feeling that they are 
part of something very important and doing some important work for our country.  
So they feel good about their service.
	But that may not last forever and we need these benefits to be reviewed 
periodically to make adjustments so that we continue to encourage people to stay 
with us because we want them to stay to 20 and 25 and 30 years, as long as they 
are productive members of our service.
	So I look forward to this dialogue.  I think also, as I indicated at the 
beginning, that the amount of benefit we have relative to the tuition costs 
today, perhaps it has not stayed in pace with tuition increases.  So a review of 
that, I think, would be helpful as well.
	But thank you for the leadership on this important issue and I look 
forward to your questions.
	THE CHAIRMAN.  Thank you.
	[The statement of John A. Bradley appears on p. 68]

	THE CHAIRMAN.  Lieutenant General Bergman, you are now recognized.

STATEMENT OF GENERAL JOHN W. BERGMAN

	GENERAL BERGMAN.  Good morning, sir.  I am Jack Bergman, Marine Corps 
Reserve.  Thanks for the opportunity to be here today.
	Education is so important at all levels, whether it be in military or 
civilian, that we have to take every opportunity to give the best we can.
	We see in the QDR that we are in the long war.  Therefore, the word long 
as in long, longer careers, longer production, longer education, I think, is 
appropriate.
	By and large, young men and women who join the Marine Corps do not 
initially join for educational benefits.  They join to be Marines.  However, 
long-term retention of good Marines comes from providing worthwhile broad-based 
educational benefits, benefits that are equitable from that individual's 
perception.
	Ann example would be when a Marine separates from active duty after a 20-
year career, they have ten years to utilize their GI Bill.  If the Reservist, 
the clock starts the time they finish and goes for 14 years.  So you could get a 
math equation there that does not allow them to really do their career, have 
their civilian job, and get their education in a timely manner before the 
education benefits run out.
	We look forward to being a partner with all of you in a process that 
creates education opportunities and benefits that are basically equitable and 
easy to utilize.
	So thank you very much for allowing me to be part of this solution.
	The Chairman.  Thank you.
	[The statement of John W. Bergman appears on p. 79]

	THE CHAIRMAN.  Major General Young, you are now recognized.

STATEMENT OF GENERAL RONALD YOUNG

	GENERAL YOUNG.  Mr. Chairman, members of the Committee, thank you for 
giving me the opportunity to come here today to discuss the Montgomery GI Bill.  
I would like to just briefly summarize some of the key points that have already 
been testified to.
	The Montgomery GI Bill Selected Reserve and the Reserve Education 
Assistance Program are a cornerstone for the National Guard recruitment and 
retention efforts.  We sincerely appreciate Congress' continued support of these 
vital programs.
	I would also like to thank the members of the Veterans' Advisory Committee 
on Education and the Partnership for Veterans Education for their continued hard 
work on these important programs.  Their efforts have highlighted two areas 
where we feel the Montgomery GI Bill Program could be enhanced, making it an 
even stronger tool for building and maintaining the Guard and Reserve forces.
	The first area and the one that we feel, the Guard feels, is number one 
priority is the return of the Montgomery GI Bill Selected Reserve rate back to 
the 48 percent range of entitlement as compared to the active-duty rate.  As you 
know, back in 2001, the rate for active duty was about $650 per month for a 
full-time student and the Selected Reserve rate was 263.
	Over the years, the Selected Reserve rate has not kept pace with the 
increases in the active-duty rate and is now about 28 or 29 percent of the rate 
earned by an active-duty member, about $1,034 compared to 297.  The difference 
needs to be addressed and, as a result, will be an even greater enhancement to 
our ability to recruit and retain the force.
	The second priority for the Guard is the retention aspects of the current 
program.  We feel it is very important that a Selected Reserve member be 
required to continue their membership and their service in the Guard or the 
other Reserve components in order to use the Montgomery GI Bill benefits.
	Under the current programs, if the servicemember separates from the Guard 
or Reserve, they lose their entitlement to the Montgomery GI Bill Selected 
Reserve.  We are in favor of retaining this type of a continued service 
requirement in order to use the benefits.
	Keeping the unique aspects of the Montgomery GI Bill as they relate to the 
Reserve components is also important.  For instance, the services should 
maintain the function of determining eligibility for benefits and we should 
continue to have the ability to combine those benefits to such programs as 
tuition assistance and others.
	The Reserve components have a vested interest in ensuring their 
servicemembers are taken care of and should retain their authorities under the 
current programs.
	In summary, from the National Guard's perspective, the bottom line is that 
we need to increase Montgomery GI Bill Selected Reserve rate, continue the 
requirement that as servicemembers stay in the Guard, to use their benefits, and 
allow the Reserve components to continue in managing the unique aspects of the 
program.
	I thank the Committee for your continued work on this important program 
and for your continued support of the National Guard.
	THE CHAIRMAN.  Than you very much.
	[The statement of Ronald G. Young appears on p. 84]

THE CHAIRMAN.  Admiral McDonald, you are now recognized.

STATEMENT OF ADMIRAL CRAIG MCDONALD

	ADMIRAL MCDONALD.  Mr. Chairman, distinguished members of the Committee, 
good morning and thank you for inviting me here today to talk to you about the 
Montgomery GI Bill.
	As the Chairman introduced me, I am Rear Admiral Craig McDonald.  I am the 
Commander of the Navy Reserve Forces Command headquartered in New Orleans, 
Louisiana.
	And today I am here representing 70,000 warrior sailors and Vice Admiral 
Cotton, Chief of Navy Reserve.  He sends his respects and regrets he could not 
be here today.
	As you know, we are in a long war.  Fighting in this war are our best and 
brightest that the United States has to offer.  Our sailors are serving around 
the world on land, on sea, in the air, in a Navy that is more capable and more 
technically complex than at any other time in our history.
	We need a total compensation package that will help us attract and retain 
these outstanding sailors, and the Montgomery GI Bill is a very vital part of 
that package.
	The Montgomery GI Bill provides an important incentive for citizens 
considering joining the military and those already in our force.  I mean, having 
help going to college or paying for a technical school can be a very powerful 
motivator for new sailors and Navy veterans.
	The Montgomery GI Bill gives an excellent way to improve their earning 
potential by joining the military.  It is a benefit which also gives our present 
Reserve sailors an outstanding reason to continue their affiliation with the 
Reserve component.  Maintaining and improving this program is a worthwhile 
endeavor for all of us as it not only helps a sailor personally, it helps him or 
her professionally.
	I have reviewed the Partnership for Veterans Education proposed changes 
and offer these comments.  As part of the Montgomery GI Bill, the portion 
offered to our Selected Reservists has not been keeping up with the growing cost 
of education.  A readjustment mechanism built into the program requires 
revamping.
	And with educational costs rising as steadily as they have over the past 
two decades, the benefits have been devalued.  Although the active component was 
increased in 2000, 2001, the Reserve component was not increased at the same 
time.
	As the Partnership for Veterans Education suggests, the Reserve component 
could be tied to the active benefit to ensure both benefits are increased 
proportionately when adjustments are made either programmatically, through 
indexing, or legislatively.
	The Partnership on Veterans' Affairs proposed other major changes in both 
benefits and administration of the GI Bill.  These benefits are an important 
part of the total compensation package and any proposed changes should be 
studied to ensure maximum value for servicemembers and the country.
	The Navy Reserve shares the Committee's concerns and is very interested in 
maintaining the viability of the Montgomery GI Bill.  Therefore, the Navy 
Reserve is participating in and fully supports the joint DoD and VA working 
group on the Montgomery GI Bill.  We are working together to ensure 
servicemembers have a viable program that helps them grow and provides an 
incentive for them to serve in the nation's military services.
	In summary, I would reiterate that this program is a crucial part of the 
total compensation package offered to our servicemembers.  The Navy Reserves 
looks forward to fully participating in any discussions on how to improve the 
Montgomery GI Bill.
	Thank you, and I am prepared to answer any questions.
	THE CHAIRMAN.  Thank you.
	[The statement of Craig McDonald appears on p. 89]

	THE CHAIRMAN.  Admiral.

STATEMENT OF ADMIRAL SALLY BRICE-O'HARA

	ADMIRAL BRICE-O'HARA.  Good morning, Mr. Chairman and distinguished 
members of the Committee.  It is a real pleasure for me to be here this morning 
to discuss educational benefits for the members of the Selected Reserve.
	The Coast Guard Reserve pioneered the full integration of our Reservists 
into our active component units in the mid 1990s and so we are always eager for 
ways that we can assure greater parity and seamless transitions between our 
active and Reserve components.  A total force GI Bill may be the possible avenue 
to help accomplish this.
	Educational benefits such as the Montgomery GI Bill and the Montgomery GI 
Bill for the Selected Reserve are important components in recruiting and 
retaining members of the Coast Guard's total force.  We also believe that our 
Tuition Assistance Program is an invaluable tool for attracting and retaining 
21st century talent.
	In January, we began aggressively marketing the new Reserve Education 
Assistance Program and have had great interest in that as well.
	Our recruiters confirm that educational benefits are among the top reasons 
that individuals join the Coast Guard and decide to affiliate with the Coast 
Guard Reserve.  The fact that Selected Reserve members are not required to pay 
into the MGIB-SR is cited as a plus.  And the nontaxable status of the payments 
and the ability to combine the MGIB-SR with tuition assistance are also 
frequently noted positive features.
	On the downside, the MGIB-SR cannot be used to repay student loans and 
this is a limitation that may discourage promising applicants who already have 
completed some college.  Added flexibility in this area is desirable.
	Our funded Selected Reserve strength is 8,100.  Strong educational 
benefits help explain why our retention remains at pre 9/11 high levels.  
Currently it's about 87.4 percent.  And that is despite very heavy utilization 
of our Reservists in our homeland security missions.
	The Master Chief Petty Officer of the Coast Guard Reserve Force frequently 
visits our units and he is convinced that educational assistance is the key 
factor in the decision of our first-term members to stay on with the Coast Guard 
Reserve.
	We look forward to the results of the joint DoD and Department of Veteran 
Affairs working group.  There is a merit to a total force education benefit that 
combines the best aspects of the existing programs as well as new aspects that 
will better serve our military men and women.
	Our paramount concern is that there be no reduction in the quality of 
service that our members receive, particularly related to the ease of access and 
timely receipt of benefits.  And we would want to ensure that the data systems 
are in place at the VA to accommodate any new program.
	To conclude, the Coast Guard Reserve values its long-standing partnership 
with the Department of Defense components, support through the Department of 
Veterans' Affairs, and we are eager to maintain parity of benefits for our men 
and women who serve so well.
	I am happy to answer your questions.  Thank you.
	THE CHAIRMAN.  Thank you very much for your testimony
	[The statement of Sally Brice-O'Hara appears on p. 96]

	THE CHAIRMAN.  I have been placed on notice that we may have some votes 
that may occur from 11:15 to 11:30.  It will be a 15 minute vote followed by two 
fives.  So I apologize to the panel.  Life on the Hill continues.
	By way of an opening comment, Secretary Hall, I would like for you to know 
that when we had 19 of the veterans service organizations and military service 
organizations come testify on their views and estimates on the budget and some 
of their resolutions, I took an opportunity to share with them a concern.
	And the concern is that you have individuals who have been ordered to 
active duty out of the Individual Ready Reserve (IRR) and have not shown up for 
duty.  And as I understand, the DoD does not want to charge these individuals 
with AWOL and that you are seeking to administratively process them.
	You are in the Veterans' Affairs Committee, so we take care of the 
benefits of the men and women who serve the military once they become veteran 
status.  And there is a concern here.
	The concern is that, if you permit these individuals just to be 
administratively processed and they receive a general discharge, they may be 
eligible for their veterans' benefits just as if they had gone to war.  And that 
concerns some of us on this Committee.
	So if these individuals who were ordered to appear and did not appear and 
you elect not to charge them with AWOL, and face Court Marshal, then if you are 
going to administratively discharge these individuals, they need to be processed 
under other than honorable conditions.
	If you process these individuals and they receive a general discharge 
under other than honorable conditions, then they will not be entitled to their 
veterans' benefits and that is an important distinction.
	So, Mr. Secretary, if you want to change, we just want you to make sure 
that these individuals are processed in a manner whereby they can be properly 
adjudicated.
	And I will be very cautious about command influences and things like that.  
And that is why I shared the Committee's concern with the 19 veterans service 
organizations and military service organizations.
	You just need to make sure that the commanders in the field have knowledge 
of the tools on how to respond to each of their cases.  Would you not agree, Mr. 
Secretary?
	MR. HALL.  Yes, sir.  And the services who have those members are 
proceeding with handling them.  And I will ensure your words and concerns are 
relayed to those services that are presently considering those members.
	And I might say that the people in the field that I visit with, our 
members who have reported are also concerned that they reported and the others 
did not.  And so I will make sure that those concerns are expressed to the 
individuals, to the people handling the cases now.
	MR. BILIRAKIS.  Would the Chairman yield for a minute?
	THE CHAIRMAN.  Yes.
	MR. BILIRAKIS.  Directly on that point, the Chairman focused on the words 
general discharge.  Now, we know that general discharge is not always, at least 
the way it used to be, is not always a less than honorable kind of thing.
	I suppose someone whose expiration of term of service has not been reached 
and for the convenience of the government, for some reason or another, they are 
discharged before time or there are other reasons, I suppose, why people are 
discharged on a general discharge.
	And I guess my question is, these people apparently fall under the general 
discharge, which is unfortunate, I think, for they should not be.
	Am I right to be concerned about whether we should be referring to general 
discharge here as against specifically the type of military person that the 
Chairman is concerned about?
	MR. HALL.  Well, I would not characterize right now the nature of their 
discharge because it is an ongoing process.  The services are looking at them.  
And so it would be inappropriate to say that they are going to receive this type 
discharge, whatever.  They are considering that right now.  And I will relay 
your concerns.
	So no decision has been made on the nature, the type of discharge -- 
	MR. BILIRAKIS.  Am I correct, though, the general discharge is not 
necessarily under other than dishonorable conditions?
	MR. HALL.  You are.  And -- 
		MR. BILIRAKIS.  I am.  So taking these people and putting them into 
that particular package would be, I think, a real terrible thing.
	THE CHAIRMAN.  It requires an administrative process to do that, a 
hearing.  They have their rights.  If they had completed their military service 
and they finish their time in the IRR, you know, they are honorably handled.
	But if they have been ordered to active duty -- and as a matter of fact, 
there is great latitude in the regulations there might be some circumstance 
whereby you are going to permit their absence.
	But if this is an individual who has just said, "no, I am not showing up," 
then they need to make sure they have the proper tools -- 
	MR. BILIRAKIS.  I mean, if you look askance at that individual and want to 
get rid of them, I would be concerned that that individual would have a general 
discharge is what I am saying.
	THE CHAIRMAN.  Right.
	MR. BILIRAKIS.  That should be under other than honorable discharge or 
something like that.
	THE CHAIRMAN.  So this is an individual who did not show up to stand side 
by side his comrades.  He should not be entitled to the same benefits of those 
people who went.
	You would agree with that, right?
	MR. BILIRAKIS.  I would agree with that, sir.
	THE CHAIRMAN.  All right.  Now, the other point I wanted to make, you 
know, as the Reserve commission is out there and they are also taking into 
consideration this issue on the IRR and how we are going to properly manage 
these IRR members.  And we want to make sure that we also watch the benefits.
	So, you know, General Helmly, you used to manage the IRR and they have 
taken that responsibility from you, is that correct, or am I -- 
	GENERAL HELMLY.  Mr. Chairman, as we integrated our personnel commands or 
centers in the U.S. Army Reserve and the regular Army into the Army Human 
Resources Command, the decision was made that daily management would fall to the 
Commander of Human Resources Command.  I do not consider that I then lost 
responsibility.   
	I believe if you look at the definition of Reserve of the Army and law, it 
is inclusive of the IRR and, therefore, I am not worried too much about who 
manages the records on a daily basis as much as an acceptance of my obligation 
to advise the Chief of Staff Army and the Army leadership about use, et cetera, 
of the IRR.
	THE CHAIRMAN.  Well, here is my point.  I want to be able to match the 
benefit with continued service.  And maybe part of our other concern is when 
they finish a four-year commitment, maybe they should not get their honorable 
discharge at that moment in time.  Maybe you could give it a different name, a 
title.  They do not receive their "discharge" until they have fulfilled the 
commitment of their contract which includes that inactive duty time.  And then 
you manage them properly.  You know where they are.  You know what their 
physical shape and condition is.  And they are also drawing their benefits.
	So if we look at the GI Bill benefits and if they are continuing to draw 
those benefits, but, when they have been ordered back to active duty or for 
whatever reason we do not know where they are, I mean, that is telling me that 
we have some problems with this inactive status within the IRR.
	GENERAL HELMLY.  Mr. Chairman, I concur with you.  Historically we have 
not done a credible job of disciplining the records keeping.  Large numbers of 
the IRR, frankly, is they were moved from some other status, be it Selected 
Reserve or the regular Amy.  Their records should never have been coded that 
they were in the IRR.
	We have people in there who never completed basic training, but their 
records were shipped from the training center coded IRR.  We have people who 
never shipped to basic training.  Their records were coded IRR.  It has been 
very undisciplined.  And under the leadership of our Manpower and Reserve 
Affairs Director, we have undertaken efforts to clean up the record keeping, the 
coding et cetera.  But it will take time to clean that record keeping mess up.
	I concur with your observations regarding benefits that we accord members.  
We have the situation where we stopped lost members of the Selected Reserve.  
Others have moved to the IRR with no action and without a request and without a 
valid reason to go there.  And I concur with you that if they are then ordered 
to active duty under competent mobilization authority, we should ensure that the 
laws and the regulations are applied in an even manner.
	THE CHAIRMAN.  Dr. Snyder.
	DR. SNYDER.  Thank you, Mr. Chairman.  Mr. Chairman, I want to thank you 
for holding this hearing.
	There has been quite a bit of interest in this topic through the years on 
the Armed Services Committee, perhaps just because you left the Armed Services 
Committee.  But I have been unsuccessful in getting this kind of a hearing on 
that side.  And as you know, we have got this issue about the benefit is covered 
by both Committees.  But I know this is just the first step in this process.
	I am going to try to make Congressman Boozman's hearing in northwest 
Arkansas next week which I think -- we have so many veterans and a lot of them, 
as you all know, have been called up in the Guard and Reserves and Air Force 
Reserve, Army Reserve, Marine Corps Reserve.
	So I think we will get a good sampling of people.  But I think it is 
important that we are looking at this topic.  And I know that you intend this to 
be just the opening inning of this game.  And I appreciate you doing it.
	I wanted to go through here, if I could, and just very quickly, if I 
could, Mr. Carr, in your written statement, you said, "The MGIB benefit should 
be sufficient to offset the commitment and sacrifices associated with military 
service.  The current program continues to serve the active components of the 
military well.  It is our belief that there are no significant shortcomings to 
the program from our perspective."
	And then, Mr. Hall, in your written statement, you say -- uh-oh, I am 
seeing a pattern here; that is my quote, not yours -- "We have not identified 
any significant shortcomings in the structure and utility of the MGIB-SR."  And 
then you go on down below on page three to say, "We have not identified any 
further changes we need to make to this program at this time."
	But that is in my view, both your statements, that there are no 
significant shortcomings is in contrast with what we have heard from this panel.
	And if I might quickly, Mr. Chairman, run through these.  General Helmly 
in his written statement states, "The cost of college education has risen 
dramatically over the past ten years and there now is a significant disparity in 
the dollar amount for the active components, Montgomery GI Bill, Chapter 30, and 
the MGIB for the Selected Reserve, Chapter 1606 and 1607."  A significant 
disparity.
	On page three, General Helmly's statement says, referring to the Selected 
Reserve MGIB, "It has not kept up with increasing tuition costs and is not 
commensurate with the expanded role of the Army Reserve."  He goes on to say, 
"An increase in the monetary benefit is needed in the MGIB-SR."
	In General Bergman's written statement, he says, "The value of the Reserve 
component has decreased since its initial implementation."
	In General Bradley's written statement, he states that, "The Montgomery GI 
Bill originally establishes Reserve education benefits at 48 percent of the 
regular component benefit.  Regular component benefits have increased over time 
with the result that the Reserve benefit has fallen to approximately 27 percent.  
So it decreased from 48 percent to 27 percent."
	To me, by the way, Mr. Chairman, that is a key part that got a lot of 
members' attention, is the drop in this benefit compared to the active has 
occurred.
	And then also in General Bradley's written statement, he says, "The time 
has come to look at how the Montgomery GI Bill can be used as a total force 
incentive."
	General Young, in your statement, your oral statement this afternoon, you 
mentioned, or this morning, the differences, that we need to deal with those 
differences.
	And then, Admiral McDonald, you in your oral statement today specifically, 
I believe your words, that educational costs have been devalued because of the 
inflation rate.
	Well, in fairness to you gentlemen up here, you know, this is a brief 
hearing and this is just scratching the surface.  But members of this Committee 
are concerned about this issue as a lot of members are who are not a member of 
this Committee.  This is what we have heard from people back home.  And some of 
us are veterans.  And I know the value, the educational value has been 
diminished dramatically since post World War II.
	So I think there are "significant" shortcomings in the current benefit.  
And I believe the Chairman's calling of this hearing today is just the initial 
part of this, is an acknowledgement of that and an acknowledgement that we want 
to work on this.
	We also recognize that we have issues of money, that we have issues of 
complexity.  We have issues of fairness.  We have our own internal issues 
between our Title 10 or the way the legislation is set up.  But I am interested 
in working on this with the Chairman and Mr. Boozman and Ms. Herseth and others.
	And I look forward to working with all of you because I do believe there 
are significant shortcomings to the current benefit.  Appreciate you all being 
here.
	Thank you, Mr. Chairman.
	THE CHAIRMAN.  I would welcome any comment on Dr. Snyder's opening.  Any 
of you have any comments on his comments?
	Yes, Mr. Carr.
	MR. CARR.  I think with regard to the arguments had to do with equity, 
which is important in many of the military compensation programs we undertake.  
Equity for the sake of equity can be a compelling and prevailing, pervasive 
argument.
	In the case of the Montgomery GI Bill and the case of the active that it 
serves well given that 97 percent enroll, that 70 percent use, that it covers 77 
percent of the tuition cost, better than at the outset of the program.  Those 
are the reasons for which I said that in the case of the Montgomery GI Bill 
Program for the active, it was okay.
	But I think that, sir, you do point to the area that is the rub here and 
that is we have the Reserves increasingly serving on active duty.  And what we 
had to do is to create the balance between the benefit and the sacrifice so that 
it squares in our judgment.
	And the fact that they have grown apart because different decisions were 
made in the public sector is notable, but the degree to which they should 
converge is the difficult part.  And I think therein, two principles guide us.
	One, that service in the Selected Reserve is more valuable, that ready and 
service on active duty is especially valuable.  And you can begin to converge 
toward the active benefit when those types of conditions are met.  So those 
guide us in terms of how to close the gaps that you so correctly pointed out.
	GENERAL BRADLEY.  Since you asked, Dr. Snyder, for comment, I would say 
your question is a good one.  I would say that I am not looking for parity or 
equity with the active force.  But, frankly, since this began, my Reservists are 
working almost twice as much as they worked before the benefit began and their 
benefit is essentially half of what it was when it began.
	My airmen and many of the other Reservists and Guardsmen who are 
represented here by their component chiefs, I think, would tell you as well that 
our folks are doing a lot.  I have been to a lot of sessions where we have had 
events for wounded soldiers, sailors, airmen, Marine, and Coast Guardsmen.  And 
a huge percentage, a large percentage of the folks who are injured in our 
current efforts are members of the Reserve components.
	So I think their sacrifices are significant and they deserve at least 
something, rather than a shrinking benefit, at least maintaining where they were 
because we are an operational Reserve today.  We are being used in ways in which 
some people never envisioned doing it.  I personally think it is a good thing to 
be used as an operational Reserve, but I think my airmen deserve a benefit that 
matches the level of effort that they are putting into our war.
	Thank you.
	MR. HALL.  I wanted to have one comment on that.  I do not think there is 
probably any disagreement that we need to address a couple of issues.  One is 
the atrophying of the benefit down to 28 percent and also the length of time in 
which Selected Reservists could use the bill.
	I think we need to move towards incentivizing people to stay longer rather 
than leave earlier.  So perhaps the length of time at 14 years is not right.
	I think the issue at hand is the manner in which we do that.  We have the 
Joint Committee which is meeting now, should report out by June.  They might 
well agree the joint DoD and VA Committee raising the rates.  They might well 
agree of lengthening the time.
	My statement indicated that it was not in the 2007 Bill from the 
department, any of those proposals which, of course, is part of clearing the OMB 
process, et cetera.
	Should they come to the conclusion in the Joint Committee that those rates 
and others need to be addressed, I am sure the department would send those 
forward.
	GENERAL HELMLY.  Mr. Chairman, if I may -- 
	THE CHAIRMAN.  Mr. Helmly.
	GENERAL HELMLY.   -- I concur with Dr. Carr's comment that we have had 
proposals that would make rates of entitlement and benefits for Reserve 
component members roughly proximate to those of regular force members.  And then 
we have to ask ourselves about the negative effect on our regular forces.
	The issue is first of all to acknowledge that the rate has not been 
modernized since approximately 2001.  We face that in a different thing called 
the first-term reenlistment rate where it was not so much trying to raise that 
to the active component rate as the fact that when we raised the active 
component rate, we neglected to address the Reserve component rate.  And it put 
the Guard and Reserve forces roughly two years behind playing catch-up on 
retention.  We do not need to do that on a very important tool for recruiting 
and retention, our educational benefits, which comprise more than simply the 
Montgomery GI Bill.
	The last remark I would make is that I agree completely with Secretary 
Hall.  Our focus needs to be on retention, not solely the rate at which we are 
mobilizing.  We will not be mobilizing at this rate forever, but we will be 
dependent on a stronger, more robust Guard and Reserve force roughly forever in 
my own judgment.
	The world has changed in major ways and we must adjust how we plan to man 
our all-volunteer recruited forces differently for this century than we did last 
century.  That is why I appreciate the strategic view of this hearing.
	Thank you.
	THE CHAIRMAN.  Thank you.
	Mr. Bilirakis.
	MR. BILIRAKIS.  Mr. Chairman, we are running out of time and I cannot run 
as fast as I used to to get over there in time to cast that vote.
	THE CHAIRMAN.  How much time do we have?
	THE CLERK.  Nine minutes.
	MR. BILIRAKIS.  Nine minutes.  All right.
	THE CHAIRMAN.  Five minutes.
	MR. BILIRAKIS.  I will just make a statement because, otherwise, you are 
not going to be able to ask your questions.
	Veterans Education Assistance Program (VEAP).  I am just concerned about 
the issue of this hearing as expressed by Dr. Snyder and by the Chairman.  But I 
sort of go even past that.  And I am really concerned about VEAP.  I am 
concerned about the unfairness to that member of the military who had to make 
that decision, you know, at one particular time and did not do so for whatever 
reason.
	And, you know, I am very grateful to the GI Bill.  A hundred and ten 
dollars a month is what it was in the Korean War, the GI Bill.  It was not much, 
but I will tell you it was just enough there to get me started and I had to work 
my way through the rest of the time too.
	But I made that decision after I got out of the service.  I mean, I had 
intended to go to college.  I told all the recruiters who tried to keep me in 
that I was going to go on to school.  But I made the decision afterwards.  And, 
you know, for me to have made that decision during basic training, which was 
maybe some of the worst eight weeks of my life, would have been pretty damn 
unfair.
	So I wanted to get your comments on that, but really we do not have the 
time.  And I am not going to ask for it now, but I am here to just put you all 
on notice, as the Chairman did regarding his subject, put you all on notice that 
I feel very strongly about maybe reopening that as expensive as it is.  And 
hopefully you all will cooperate in that regard.
	Thank you, Mr. Chairman.
	THE CHAIRMAN.  Thank you.
	The Committee is going to stand in recess.  We need to come back.  I 
apologize to all of you, but we have a lot we have to get on the record.  And we 
need to have a good dialogue here.
	So the Committee will stand in recess for approximately 30 minutes.
	[Recess.]

	THE CHAIRMAN.  The Committee will come back to order.   
	I will now recognize Mr. Bilirakis.
	MR. BILIRAKIS.  Thank you, Mr. Chairman.  I was not sure that we would be 
coming back.  And I apologize for coming in late.  I had, as we sometimes do 
here, had a hearing in health care on transparency of health costs in one of the 
other Committees.
	I am just going to stay on VEAP, Mr. Chairman, because the GI Bill, we 
over the decades, over the couple centuries, I suppose, have passed legislation 
up here.  Sometimes we do not understand the unintended consequences of our 
actions.  Some of it turned out to be not as good as we hoped it would be.
	But I think we would all agree the GI Bill has just been a wonderful thing 
and a great thing for America, for our republic.  It has served us well.
	And so to preclude a fair opportunity to all of the men and women who have 
served in the service, I think, is wrong on our part.  And that is why I am so 
concerned about VEAP.
	And I would just merely, in whatever time I might have left, ask to see if 
you have any comments there.  I realize we are talking about transferring VEAP 
over to the Montgomery Bill under circumstances other than those under which 
they were done previously, but with more flexibility, is going to be a costly 
thing.
	And I know these things come out of the appropriate budgets and that sort 
of thing.  But it seems like if we all have flexibility in our minds, maybe 
possibly those people will get back enrolled, if you will.  Maybe their 
contribution is increased or something of that nature.
	But, anyhow, any comments, gentlemen, just very briefly on that?  You 
know, if we are concerned with MGIB and we are concerned about the GI Bill, et 
cetera, in general, we have got to be concerned, too, about some people who did 
not have really a fair opportunity, at least in my mind.
	GENERAL HELMLY.  Congressman, I concur with reopening the window on VEAP.  
It seems to me that a young 18 to 22-year-old, which is the age category we 
really aim for in recruitment, coming into basic training is exposed to a brave 
new world.  The future for that age category is tomorrow, not five, ten years 
from now.
	Most are predisposed on disposable income that I can buy a motorcycle with 
as opposed to go to school.  So I concur with that.  I think that later on when 
the member has settled into the military and realizes that it is not the big, 
bad thing that they thought, that we are not going to just throw them out to the 
wolves and has gotten over the emotionalism associated with this great new 
adventure in life, they will think more clearly.
	MR. BILIRAKIS.  Yes, sir.
	GENERAL HELMLY.  And that is why I concur with you.
	MR. BILIRAKIS.  Yes, sir.
	ADMIRAL MCDONALD.  Yes, sir.  I happen to agree with you.  My aide sitting 
back here was caught up in that.  He was a young ensign coming in the program 
and decided not to take it and now he is kind of kicking himself.  If we could 
reopen that, he would take that real fast.  And that has a tool that we can use 
as our entire package for our people across the service.
	MR. BILIRAKIS.  Sure.  Now, he is still in the service on active duty.  
But should we reopen it also to those who have gotten out of the service?  Maybe 
there should be a certain period of time within which after discharge.
	ADMIRAL MCDONALD.  Yes, sir.  But my thought process on that would be that 
if we do that, then they need -- we are looking -- this is a tool to retain them 
in our organization -- 
	MR. BILIRAKIS.  Yes.  I appreciate that.
	ADMIRAL MCDONALD.   -- so they come back to our drilling population, if 
that be the case, and then serve that time.  That would be ideal if that is what 
they could do.  Yes, sir.
	MR. BILIRAKIS.  Well, of course, we have already talked about -- at least 
I mentioned it -- I am sure you all have, too, others have -- the greatness of 
the GI Bill.
	And the GI Bill was certainly not something that was used basically for 
retention purposes, but it is used.  It is great for America in general.  So if 
we would preclude those who have been discharged from having an opportunity, I 
think that would be a mistake too.
	Yes, sir, Mr. Secretary.
	MR. CARR.  Yes, sir.  Thank you.
	The VEAP is a program compared to the MGIB that was of considerably lesser 
value.
	MR. BILIRAKIS.  Yeah.
	MR. CARR.  And the way it operated was that the member could invest in an 
account and get some extra education benefit in lieu of that, recognizing that 
the Committee has two open seasons -- 
	MR. BILIRAKIS.  Yes.
	MR. CARR.   -- for those VEAPsters.  One was for those who had money in 
their account at the time and then again another open season for those who ever 
had money in their account.  And so the only ones excluded from open seasons to 
this point have been those who manifest no behavior toward and interest in the 
education.
	MR. BILIRAKIS.  At the outset of their basic training.
	MR. CARR.  Yes.  And so I mention that is the population we are discussing 
here.  There has been considerable work by the Committee already toward VEAP.
	With regard to the sentiment toward VEAP in the Defense Department, there 
is great sensitivity toward it because they are serving in today's military.  
But the bill is one that falls to the Veterans' Administration.
	And so in that case, the question might be answered differently if it were 
an item that were to be funded from the Defense budget than if it were to be 
funded by Veterans' Affairs.  And I just report that observation and perhaps the 
obvious.
	MR. BILIRAKIS.  Well, I get the feeling, though, that you are all thinking 
sort of positive in that regard and I realize that we have our barriers or money 
and the language and that sort of thing.
	Any other -- I do not mean to cut anyone off, but I guess -- okay.  Thank 
you very much, Mr. Chairman.  I yield back.
	THE CHAIRMAN.  Before I yield to Mr. Michaud, this is going to be one of 
our challenges, Dr. Snyder, between your jurisdiction on Armed Services and 
ours.  And we need to drill this down a little bit further in a moment about 
this as a retention or a recruiting tool and how it is rated among other tools 
that you may have.
	If the VA takes total jurisdiction over this, DoD transfers all of this to 
the VA, we then are removing really some discretionary authorities over civilian 
leadership and what tools that these uniformed leaders get to use.
	You know what I am trying to say?  I mean, that is going to be our 
challenge.  It is easy to say, okay, let us just transfer all this over to us 
and we will administer this for you.  But all your testimony has been pretty 
clear that this is a retention tool for you.
	And when I hear certain benefits are used as tools from you, you need to 
have some discretion and latitude.  That is my sensing on it.
	But let me yield now to Mr. Michaud.
	MR. MICHAUD.  Thank you very much, Mr. Chairman.  Thank you for having 
this hearing.  And, actually, my question relates to the retention issue.
	Assistant Secretary Hall, in your written testimony, you stated that, and 
I quote, "The fact that a member must continue to serve in the Reserves to 
maintain eligibility has greatly assisted the Reserve component as a whole in 
maintaining consistently high retention rate over the years."
	I am curious as to what you base your conclusion on.  As I understand it 
with respect to the retention issue, education benefits are quite low in the 
priority list for members when determining whether to continue or separate from 
the Reserves.  And maybe that is because the benefits are not there.
	When I looked at Mr. Bradley's testimony, he said that they have gathered 
information to help us better gauge the importance our members place on their 
education benefits.  And according to a 2004 status, only 14 percent of the 
respondents stated education benefits affect their continuation decision.
	So I am just wondering, Assistant Secretary, what do you base that quote 
on.
	MR. CARR.  Well, as you probably know, I spent 34 years on active duty and 
during those 34 years of active duty, I learned how important it was to not sit 
behind a desk and presume what people thought.
	So during my three and a half years, I have talked to 200,000 people, 
200,000 from all services in the field.  And here is what they tell me.
	They consistently list the Montgomery GI Bill as one of their top five 
programs that they value.  And not all of them say they use it and that is very 
important.  Even if you do not use it, you feel that the government is giving 
you something which you can use and it is positive.  And they know that as long 
as they remain a Selected Reservist drilling, they can use it.
	They also consistently say, however, the rates have atrophied and we need 
to do something about it.  And they also indicate that perhaps ending the 
eligibility at 14 years, maybe we ought to extend that up through 20, 25, or 
some other period of time.
	So they talk about having it a longer period of time they can use and 
addressing the rates.  But they all tell me that it is a very important benefit.  
Even if they do not use it, they know that it is there if they want to.
	Now, my colleagues who command all those might have a different 
perspective, but that is how I gained that, from going and talking to them, 
holding a town hall and saying what are your four or five benefits which are 
important to you.  The Montgomery GI Bill always stands up high as something 
they think we are giving them the opportunity to use whether they use it or not.
	MR. MICHAUD.  And I guess the next question would be to Mr. Bradley 
because actually you heard the top five.  And in looking at your written 
testimony, you said approximately half rated education benefits number nine out 
of seventeen as a factor.
	GENERAL BRADLEY.  Yes, sir.  Our utilization rate is lower than perhaps we 
would like.  I think that is a reflection of a couple of things.  And it also, I 
think, may affect where they place it in their survey of what is important to 
them as far as that list of benefits that they think are rank ordered in 
importance.
	I think the amount of work we are doing, the operations tempo that our 
folks are under over the last several years is so high, many people are not able 
to continue education because they are working hard for us, many times deployed.
	So it is just not possible to do as much because we are making them do 
more Reserve work.  We are asking them to do more and they are volunteering to 
do it.  And so I think that is why the utilization is not as high as you would 
expect.
	I think the fact that the amount of the benefit has, so to speak, degraded 
over the years may also be a reflection.  You know, it is about enough to buy 
books for a couple of courses is what they tell me, which everything helps, but 
maybe it could be better.
	So I think that is really the answer to that, and also the fact that the 
benefit terminates after the 14th year.  Many times folks have come to us from 
the active service, six, eight years of service, and then they come to us, so 
there are not that many years for them to use it because at 14 years after they 
sign up, they are done.
	I think like Secretary Hall's proposal to make this a 20 or 25 year, I 
would go for a 25.  I think it could be a retention tool.  It is not going to be 
what keeps everybody in, but it will keep some in, I think.  So I think it would 
be a positive thing for our retention if we increased the number of years which 
an individual would be eligible for this benefit.
	MR. MICHAUD.  I would like the other branches also to comment.  Do you do 
a similar survey and, if so, how does education fall in that survey and do you 
think if the rate is low, is it because the benefits are not in your opinion 
where they should be?
	ADMIRAL BRICE-O'HARA.  I would be happy to talk about the Coast Guard for 
you, sir.  We have a career intention survey which is administered not just as 
an exit survey, but when you change status.  So if someone would go from 
enlisted to officer through a commissioning program or if they would go into a 
new enlistment contract, we ask them to complete that survey.
	There are a few things that are cited in a higher priority than education.  
They include pay, job security, health care, medical, dental specifically.  But 
then after those, you also consistently find education, educational opportunity 
as well as education assistance listed as reasons that people want to be within 
the military.
	So we find that it is very much a factor that influences retention 
decisions as well as enlistment decisions, sir.
	GENERAL BERGMAN.  I do not have the numbers right at my fingertips, sir.  
But when our Marines go through their transition TAM class when they transition 
from active duty, they do fill out surveys.  The incidence, the level of 
education, taking advantage of that right after completion of their active duty 
is, I would suggest, in the Marine Corps probably lower than our sister services 
for varying reasons.
	Some of our young Marines just choose to chill out for a while after the 
intensity of the activity.  But those Marines who join the Marine Corps Reserve 
and continue to serve, when they have developed, if you will, a parallel 
civilian career, they become more aware that to be a success in a civilian 
occupation, they need to continue to educate themselves in that chosen field.
	And then it seems like it falls over that all of a sudden, the light goes 
on and that education, whether it be on the military side or how they use these 
benefits to grow themselves, if you will, in either one or both realms, clicks 
in.
	MR. HALL.  Congressman, I think that all of us would tell you that we do 
our own surveys in addition to using those administered by the Department of 
Defense.   
	Educational benefits, I believe, are perceived by the soldier as a normal 
benefit during abnormal times.  That while in the historical sense, it is not 
abnormal at all to mobilize Reserve component members during a time of conflict.
	The suddenness of this conflict and the fact that it is extending creates 
the abnormality.  And so if you look at Army Reserves' specific surveys, most 
soldiers say that items such as predictability and length of mobilization as 
well as period between mobilizations are their most pressing concerns.
	If you look back prior to 9/11 at what prompted more people to stay in or 
to enlist, educational benefits inclusive of others besides Montgomery GI Bill, 
notably tuition assistance, were consistently ranked number one or two with 
regard to what motivated them to enlist and/or to stay.
	MR. CARR.  I think when we take a percentage, one key question would be if 
we decomposed that and say who is the most predisposed toward this benefit, the 
answer is enlisted and specifically junior enlisted.
	Given that the topic is retention, it is a fact from Defense surveys that 
cut across the components that 25 percent of the E1 to 4 in the Reserves believe 
that education benefits figure prominently in their decision way ahead of health 
care, way ahead of retirement.  In fact, almost just a little bit below pay and 
benefits.
	So when we decompose who is it that we get a bang from the buck from, it 
is the crowd we want to influence favorably to retain.  We have other 
incentives.  If you go to the senior crowd, they are going to be more disposed 
toward the retirement system and its value.  But if you are trying to work the 
junior enlisted and that is the base of the pyramid, then MGIB is a strong 
pusher.
	THE CHAIRMAN.  Mr. Michaud, would you yield on that point for a second?
	MR. MICHAUD.  Sure.
	THE CHAIRMAN.  Who are you citing?  Who would you cite as an authority for 
your testimony?
	MR. CARR.  For the figures I just gave?
	THE CHAIRMAN.  Yes.
	MR. CARR.  Defense Manpower Data Center in surveys that it gives annually 
to the Reserves and to the active.  And I have got a summary of it I could 
provide to staff.
	THE CHAIRMAN.  I would appreciate that.
	MR. CARR.  Yes, sir.
	THE CHAIRMAN.  I would appreciate if you could get us that survey.  I 
think it would be helpful to us.
	MR. CARR.  Absolutely.
	THE CHAIRMAN.  Because we were able to discern that from this very same 
survey, 14 percent stated that education benefits affected their continuation 
decision.  And half of those surveys ranked education ninth out of the seventeen 
benefits.  So that does not link very well.
	General Bradley, that was from your testimony.
	GENERAL BRADLEY.  Sir, I think that was a survey that the Air Force 
Reserve did, not a DoD-wide survey.
	THE CHAIRMAN.  Well, then please reconcile the difference between -- Mr. 
Carr, your testimony that you just gave to Mr. Michaud based on data from your 
manpower and Lieutenant General Bradley's testimony relying upon -- we have two 
surveys here that are in conflict.
	MR. CARR.  Remember, I cited a subset of the population, that being the 
junior enlisted and that their behavior was particularly rich.  The opposite is 
true if you go to the more senior ranks, depressing how robust that conclusion 
is.  So that would influence it.
	But the Defense Manpower Data Center surveys are consistent over time.  We 
have a longitudinal history of them.  And, again, we will be delighted to 
provide them if that would be constructive.
	THE CHAIRMAN.  We welcome your comments, General Bradley, please.  Do you 
concur with this?
	GENERAL BRADLEY.  Sir, I am certain that is right.  I would imagine -- I 
mean, I would think that junior folks, young folks who join would cite education 
benefits as being much more important to them when they make a decision to join 
or stay than someone who is much older.
	So my survey would cover the entire force.  I did not break it down into 
that young junior enlisted category about which he spoke.
	THE CHAIRMAN.  All right.  I will go back, Mr. Michaud.
	Let me take this one step further.  I am trying to reconcile this survey 
with your testimony also about the needs you have.  You know, let us take 
advantage of the inequities.  Let us address the rate problems.  And then you 
come with a survey, your 2004 status of forces survey of Reserve component 
members.  Only 14 percent of respondents stated education benefits affected 
their continuation decision.
	Will you please comment on this?
	GENERAL BRADLEY.  Yes, sir.  What I think may play into that survey is the 
fact that the educational benefits are not worth what they were several years 
ago.  I think it reflects also the operations tempo of our forces.  They are so 
much busier and are deployed in their busyness now in what they do.
	They are deployed and so it is not easy or convenient to do night schools 
or whatever they do to complete these additional educational programs.  That 
makes it a lot more difficult.  I think that is a reason why it does not rank as 
high.  I think in other times when we are not as busy, it probably would seem 
like it is a better benefit to them.  That is my conjecture.
	So I think it is only one tool that we could use for retention.  I think 
the fact that people like what they do and they think it is important is a 
reason why they stay with us.  But education helps a certain population.  And I 
just think that any help we get to retain people would be a good thing, but it 
is not the be all and end all for retention, I do not think.
	MR. CARR.  Mr. Chairman, I might be able to help in clarifying this.  It 
is from the status of forces survey.  Fourteen percent which you cite and 25 
percent which I cite for junior enlisted are both part of that survey.  So the 
correct answer for the respondents in total is about 14 percent.
	I cited E1 to 4.  But if we looked at E5 through 9, it is only nine 
percent.  It becomes less important.  Again, talking about the education 
benefit.  And officers are all five percent or below.
	So as a group, they would respond 14 percent as it being important, but 
disproportionately, the junior enlisted E1 to 4 felt that it was important to 
them.  Not remarkable because they see that and they do not count much on health 
care because they consider themselves invincible and they do not look at 
retirement because that is well out in the future.  Therefore, you get a skewed 
reaction to the education appeal if you are talking to the very youngest 
members.
	THE CHAIRMAN.  When we say GI Bill, a lot of people immediately will 
think, all right, World War II.  All right.  Soldiers coming home.  But we had a 
draft.  So the draft went across the population and brought many people in to 
serve their country and then we provided that education for them and we as a 
society benefited tremendously from that.
	Then we transitioned to the all-volunteer force and under the leadership 
of Senator Montgomery worked seven years to produce the Montgomery GI Bill as a 
"tool" to the services on recruiting and retention of their all-volunteer force.
	We find ourselves, though, very challenged.  You recruit individuals then 
to come join the all-volunteer force to obtain your education.  And, yet, then 
we also have the Reserves and the National Guard, with individuals who are 
already established -- not all of them -- but you are also using this as a 
recruiting tool to join the Guard, and the Reserves.  You can obtain your 
education benefit on a part-time basis and serve your country.
	But we also have equally a large portion that are already in their job.  
They are comfortable with their career path.  And then they find themselves at 
war and then we want to immediately judge them and say, well, but you are 
eligible for a benefit, but you are not utilizing the benefit and you cannot 
force that horse to drink.
	You know what I am trying to say?  I mean, General Bradley, I think you 
are the one that said, you know, inequity for inequitie's sake.
	GENERAL BRADLEY.  But, sir, you know one thing I would add is the benefit 
has timed out for many of the people who are answering this survey.  If they are 
beyond 14 years of service, the benefit does not matter to them probably because 
they are not eligible for it any longer.
	The day you sign up, a 14-year clock starts and it runs out at 14 years.  
And so if you are serving at 15, 16, 20, 25 years, you are not eligible for this 
benefit anymore.  So to those respondents to a survey, the benefit is 
irrelevant.  So I think it might be more relevant, be used more, and be a little 
retention tool, I think, if we could make it a 20- or 25-year benefit instead of 
14.
	THE CHAIRMAN.  I am going to go to the rate issue for a second.  I noted 
the original nine-to-one ratio of the GI Bill benefit to the contribution level, 
and I looked at the numbers.
	Under the original Montgomery GI Bill, we have the $1,200 contribution.  
The pay of an E1 at the time was $573.60.  So back in 1985 when Senator 
Montgomery got everyone to go along with this, that was 17 percent.  That 
contribution was 17 percent of $573.  That was a $103 pretax contribution.
	Think about that.  That is a lot out of the $573.  The payout at the time 
was $10,800.  Okay?  The payout today is around 37,200.  Yet, the contribution 
has also maintained itself at 1,200.  So the contribution is not even a nine-to-
one ratio anymore.
	So based on today's E1 salary of $1,273, if you want to maintain the nine-
to-one ratio on the payout, the contribution from the soldier should increase to 
$216 a month pretax.  So the contribution based off of today's payout should be 
$4,136.
	So this whole issue about having skin in the game, you know, about what is 
your personal investment to your own education given the payout, the 
contribution has not even maintained relative to the payout as designed by 
Congressman Montgomery and the Committee at the time.
	I just want to make sure all of you knew and understood that.
	Now, as we then go to the Reserve components, with this whole issue about 
equity for equities sake, the Reservists, are not making a contribution.
	So if we want to bring this back into balance, we are talking about 
increasing the contribution with regard to soldiers and whether or not Reserve 
components should also be making a contribution into the GI Bill benefit.
	I am just throwing this out to you.  You cannot just say, well, we are 
going to do it for equity, but, gee, I want some, but then I do not have skin in 
the game either.
	So I want to have a conversation with all of you about this.  So if we are 
going to say, okay, now we make this original amendment to say, okay, we are 
going to go to the 1606 benefit. So for the Reserve components, it was about 
$297 a month.  And at that time, it was about 48 to 49 percent of the active-
duty rate.
	And according to your testimony, Secretary Hall, you are saying that that 
has now shrunk to about 28 percent.  Now, that is DoD's responsibility, 
Secretary Hall.  I view that as your responsibility at DoD.
	If your senior leaders are saying this is an important tool to us and it 
is not being kept or maintained, you have got to tell us this because obviously 
this thing, I believe it needs to be increased.  We are going to have to bring, 
the 1606 benefit up, and it is not linked to anything right now.
	When we did the 1607 benefit, it was linked and it was able to maintain 
itself to the active benefit.  But if we are going to continue to do these 
increases, should there be a level of contribution from the Reserve components?
	So let me turn that over to you.  This is a policy question and I need 
your best counsel.  There are not going to be volunteers.  I am going to go 
right down the line.  All right?  Let me start with the Coast Guard.
	ADMIRAL BRICE-O'HARA.  Sir, I would say that you have to look at the 
totality of tools that you have to use to influence our servicemembers.  And so 
the fact that there is no pay-in by the Reservist is an inducement.
	And if we were to require a pay-in, that may have then diminished 
attractiveness to that Reservist which would then cause us to have to use 
another tool potentially to attract them, recruit them, retain them in the 
services.
	ADMIRAL MCDONALD.  Sir, I recommend you just stay the way it is.  I have 
no data to show that if we make them have a pay-in whether it is going to make a 
difference or not.  But from what I see from my Navy Reservists, the program as 
is benefits them across the board if they do not have to pay in.  I would like 
to see it stay that way.
	THE CHAIRMAN.  General Young.
	GENERAL YOUNG.  Sir, I have to agree.  I am not in favor of a contribution 
on behalf of the servicemember to continue to receive their Selected Reserve 
benefit.
	THE CHAIRMAN.  So I want equity with the active components, but I do not 
want to pay for it?  Is that what I am hearing?  I mean, come on.  I am serious.  
I am going to pick on all three of you for a second.  I know you really want to 
jump in this fight.  That is really not what you are telling me, is it?
	ADMIRAL MCDONALD.  Well, equity would be then given the entire 100 percent 
return without a pay-in.  Obviously the Navy Reserve is not exactly the active 
Navy, so there are differences.  So I think this is an equitable tool by no pay-
in, but you are not receiving the 100 percent benefit.
	THE CHAIRMAN.  All right.  General Bergman.
	GENERAL BERGMAN.  Sir, I would suggest to you that equity in this instance 
refers to a perception in the mind of the individual for what they are 
receiving, for what they are giving, if you will, and their time.
	And to that Reserve Marine, they know, for example, when it comes to a 
perception of equity, some of their active component counterparts wonder why 
they get two drills for one day's pay.
	The point is, in the dollar value benefit, I do not see a need to change 
to put the Reserve component equal with the active duty as far as what they 
receive in that actual dollar output.
	THE CHAIRMAN.  The Committee is going to stand at recess for about two 
minutes.
	[Recess.]

	THE CHAIRMAN.  Mr. Bilirakis, any further questions?
	The hearing will come back to order.
	MR. BILIRAKIS.  Mr. Chairman, I do not have any questions.  I just want to 
raise a point here that I have been talking to staff.  I guess I was not aware 
that the Reservist can pick up this benefit immediately on day one, whereas 
someone serving on active duty does not get the right to the benefit unless they 
have served what is either three years or two years depending on what the 
contract is for.
	You know, active duty -- I am not belittling the role of Reservists.  God 
knows in this day and age, thank God for them.  But I am not sure that they 
should be able to pick up the benefit on -- am I correct?  Does someone have to 
serve in the Reserves for a certain period of time first before they have the 
right to this education benefit?
	MR. HALL.  I think it is enlist or reenlist for six years, make that 
obligation, whereas on active duty -- someone can correct me -- you can start it 
after two years.  But within the Reserve, if you make an obligation of six years 
or reenlist for six, you are eligible for it.  So just make the commitment you 
are going to serve for six years in the Reserve, unless somebody wants to 
correct that -- I think -- 
	MR. BILIRAKIS.  But they have served that six years?
	MR. HALL.  Yes -- no, not served six years.  Agree to serve six years and 
you can start picking up the benefit.
	MR. BILIRAKIS.  Yeah.  Okay.  So it goes right back to what I -- 
	MR. HALL.  When you join and say I am going to do this for six years, you 
can start.
	MR. BILIRAKIS.  Yeah.  You can start on day one then?
	MR. HALL.  No.  I think it is after an amount of training.
	MR. BILIRAKIS.  Well, all right.  All right.  So it is after two months or 
whatever it might be?
	MR. HALL.  There is a small period that you have to complete, some active 
duty for training period, a small time, and then you can start it.  So there is 
a little bit of training piece you have to do successfully.  That is not very 
long.  I think it is a matter of weeks or months.
	MR. BILIRAKIS.  Well, I realize you are all representing the Reserve Corps 
and they are very, very important to us.  But I do not know.  I find something 
wrong with all that.
	MR. HALL.  Could I make a comment -- 
	MR. BILIRAKIS.  Go ahead, sir.
	MR. HALL.   -- that relates to the Chairman's question?  You know, the 
words equal and fair, I think we have to think about.  Because something is not 
equal, is it perceived to be fair?  And we heard the word perception.
	And I think to get the idea that in order to be fair, we must have the 
Reserve benefit exactly equal to the active duty is wrong because if we have 
those, why not -- if the pay is the same, if all the benefits are the same, you 
have to characterize the nature of the service.  And I think in the minds of a 
Guardsman or a Reservist, fair rather than equal is what they look at.
	And I think originally when Senator Montgomery put this together and the 
benefits were at 48 percent of the active duty, based upon a characterization of 
your service, you were not full time, they thought that was a fair thing.  Now 
that it has atrophied, perhaps in their view, it is not the equal.  Is it still 
as fair as it was at that point.
	So I think they focus more on perhaps having it for a longer length of 
time, perhaps having it back at what it started at, the 48 percent.  And that 
would be fair.  I do not think they would say it has to be exactly equal to 
active duty and the same things before the situation.
	So I think we just need to think about the fair and equal between the two 
and characterize the nature of the service and they will end up being different 
benefits.  But if they are perceived to be fair, then I think our young men and 
women will reenlist and will continue to serve.  That is my view on the equality 
versus fairness.
	MR. BILIRAKIS.  Mr. Chairman, I realize the focus is on retention and that 
is awfully significant.  And if we look at it from a retention standpoint, then 
I stand corrected.  But I think we have -- again, I keep repeating this -- the 
value that the GI Bill has been to our way of life.  And if we think of that, 
then I think we ought to also be thinking beyond just retention as significant 
as retention is.  And, you know, it should be a little bit of a reward, I should 
think, for the person who served a certain period of time.
	THE CHAIRMAN.  All right.  To focus this then so we do not get too far out 
of the box on redesign, the issue is going toward rate and length of time for 
the opportunity to utilize the benefit.
	GENERAL HELMLY.  I would commend to you, and I have heard several of my 
peers also state this, also the use of the benefit, that is to allow, as you 
noted in your comment, for certain types of training, not just the traditional 
college degree.
	MR. HALL.  I would also mention, Mr. Chairman, last year, some of the 
changes you made to use were some of the certification and training courses 
which were received exceptionally well by our members.  And I think a further 
expansion of that into things for long-range truck drivers and other kinds of 
courses would be welcome as a positive step.  So expanding some of the training 
certification and other kinds of skills would be the third item in addition to 
the rate and length.
	THE CHAIRMAN.  All right.  General Helmly, then an issue, or, General 
Bradley, actually, this is for the entire panel: credentialing.
	Right now if you have got one of your mechanics working on a particular 
aircraft and he has been trained to work on that aircraft and now he wants to 
leave, but now he cannot go down and work on that aircraft because he has not 
been properly certified according to blah-blah-blah.
	GENERAL BRADLEY.  Yes, sir.  I would be in favor of that.  I would agree 
with what General Helmly just said and Secretary Hall.  I think those changes 
would make it a much more viable, helpful program.
	THE CHAIRMAN.  Okay.  So focus more predominantly on these three issues, 
the rate, the opportunity of use, IE, length of time, and then the 
credentialing.  And what word did you use?  You did not use credentialing.  You 
called it?
	MR. HALL.  Certification
	THE CHAIRMAN.  Certification.
	MR. HALL.  Yes, sir.  That is what I would agree with.
	THE CHAIRMAN.  All right.  I need to do this for the record.  I would like 
to go down the line from Lieutenant General Helmly on down.  I want you to give 
me a good 35-, 40-second snapshot of one of your Reservists, Coast Guardsmen, 
National Guardsmen, who has been brought to active duty.  Tell me what happens 
to them, for example, tank platoon commander, round out.  I just need to get on 
the record when they serve next to an active-duty counterpart, that counterpart 
gets X, but my person does not get what, but gets utilized in comparison.
	Can you do that for me, General Helmly.
	GENERAL HELMLY.  Congressman, I think the biggest complaint -- in fact, I 
know the biggest complaint we have from Army Reserve soldiers is not so much the 
measurement of benefits and entitlements as it is the treatment.
	THE CHAIRMAN.  Will you hold just a second?
	GENERAL HELMLY.  Yes, sir.
	THE CHAIRMAN.  Mr. Bilirakis is going to take the Chair to finish this 
series of questions and then I am going to need to leave.
	MR. BILIRAKIS.  You said this question.
	THE CHAIRMAN.  And any other follow-on you would love to have.
	We are going to have questions that we will submit for the record.  I want 
to thank you for coming.  This is very important and I appreciate that.  You 
help focus us in three very important areas that can be very helpful to you.
	MR. BILIRAKIS.  [Presiding]  Who had the floor here?  Go ahead, sir.
	GENERAL HELMLY.  Congressman Buyer had asked for each of us to address an 
issue as regards how our Reserve component members may feel relative to an 
active component member.
	I had just responded that I personally do not often hear a complaint about 
equity of benefits.  And I agree with Secretary Hall.  It is really about 
benefits and entitlements commensurate with one's service, commensurate with 
inactive service as opposed to daily active-duty service.
	Having said that, the biggest complaint we have about relative to the 
active component is regards to treatment.  And I do not mean an intentional Army 
bad treatment of Reserve component members.  As much as we mobilize them, we 
consider them to be unready rather than treating them as a professional soldier, 
challenging them, providing them kinds of training that challenge them, that 
energize them looking forward.
	They will often point to I do not understand why I had to spend 75, 90 
days at a mobe station trying on new kinds of boots, why I could not just be 
issued the boots ahead of time, why if I passed the PT test ahead of time you 
did not take it like my active component counterpart, those kind of things.
	They see it as somewhat dehumanizing.  The Army has made strides at issues 
of our Reserve component members, the same kinds of equipment, et cetera, but 
they complain often about the length of time and before I get to theater and 
start getting on with my business.
	MR. BILIRAKIS.  And I think we get those comments.  I know I went with a 
group with the Air Force Caucus to Iraq a few weeks ago and we received some of 
those comments.
	Who is next?
	GENERAL BRADLEY.  General Bradley.  I think he intended for us to go down 
the line with that question.
	Actually, sir, I think for our Air Force Reserve airmen, I do not hear 
complaints about treatment or benefits or pay for folks that are mobilized.  
They are pretty much qualified for the same pay and benefits that active regular 
Air Force, regular component folks acquire in those cases.
	There are things that some people consider not quite right or fair when 
they are not mobilized, some of the things.  But the question was about when you 
are on active duty, what things are different.  And there is actually very 
little that is different in regard to the pay and benefits.
	MR. BILIRAKIS.  All right.  Thank you.
	General.
	GENERAL BERGMAN.  Sir, from the Marine Corps perspective, I would echo the 
comments of my colleagues.  When you are in active duty, everything is basically 
the same.  They are all going to the same fight.
	When you are in a nonmobilized, nonactivated status as a Reserve, you are 
really running a parallel, the kind of dissimilar life that you have chosen.  
And to be honest, when our Marines come whether for two weeks or two days in 
that nonmobilized environment, they are there because they want to put on the 
uniform and they want to just be Marines.
	So you do not hear -- the complaint, of course, we always want more chow.  
We always want more bullets, always want more training.  And I say that in a 
very serious way because at the rate of utilization of our resources, our 
equipment, when these young folks come to train, they want to have the 
capability to do that.  And they are really not talking about the kinds of 
things that we have been discussing here.
	MR. BILIRAKIS.  General Young.
	GENERAL YOUNG.  Sir, I think overall, the department has done a great job 
at equalizing the benefits and making our Guardsmen that are mobilized feel that 
they are receiving equal treatment and the same degree of equipment, training, 
and everything else.
	Early on, those returning from theater that had medical problems, there 
was some perception there that their degree of treatment, the level of treatment 
was not the same.  But the Department of Veterans' Affairs, everybody has worked 
hard that where we found those types of disparities or differences, we have 
worked hard to change those and change those programs to make sure that is not 
the case.
	So I would think today -- I was an Assistant General for six years and 
mobilized a lot of soldiers out of Ohio and early on, there were some of those 
perceptions -- but today, the returning soldiers from the Ohio Army National 
Guard feel like they are treated just like an active-duty counterpart.
	MR. BILIRAKIS.  That is good.
	GENERAL YOUNG.  Thank you.
	MR. BILIRAKIS.  Admiral.
	ADMIRAL MCDONALD.  Sir, I will have to agree with the chiefs.  Once on 
active duty, there is very little differences.  It is getting to and off active 
duty, the continuum of service, the ability to easily move from the Reserve 
component to an active status and back with all the difficulties in there.  We 
are working on that within DoD, but we have got some hurdles there.  That is 
about the major issue I hear from my mobilized Reservists.
	MR. BILIRAKIS.  Coast Guard.
	ADMIRAL BRICE-O'HARA.  Sir, I would echo what was just said concerning the 
transparency and seamlessness with which we manage our Reserve component.  As 
much as we can do to make processes the same between the two components, the 
better we will be.
	Relative to specific complaints, the most frequently heard in the past has 
been the discrepancy in housing allowances, but recent legislation has vastly 
improved that.  And with the new change to the basic allowance for housing 
entitlement, we do not hear that complaint.  But by far, that was the largest 
that I had heard in my travels through the Coast Guard.
	But with our integration, the Coast Guard Reservists feel very much a part 
of team Coast Guard and they do not feel second citizens.  They are right there 
on the front line and delivering services with great professionalism and 
dedication just as their active counterparts are.
	MR. BILIRAKIS.  Well, thank you.
	Before I forget, I do want to go into this other area that I brought up 
previously.  But you are among the busiest people in our society and for you to 
sit here all these hours, I mean, we really commend you.  I apologize for it, 
but many of you have experienced this before, so you know what the heck it is 
like up here.  So I just wanted to get that.
	But let me get back again to the Reservists.  And your job is to get 
people to come into the Reserves and to retain them and that sort of thing.  And 
I appreciate that.
	But a guy signs up for six years and is still a civilian and immediately 
starts his education and maybe picks up the degree in four years, three years 
depending on what and then does not complete the six-year contract.  And this 
goes back, I guess, to what the Chairman had brought up.
	In the meantime, that person has already had the education that has cost 
the taxpayers an awful lot of money.  You have had the use of that person for 
that three or four years and probably served in Iraq or Afghanistan or whatever.  
In today's world, the Reservists, I know, are just serving so much differently 
than they used to many years ago.
	The only penalty for that individual would be a nonhonorable discharge?  
It could be general or it could be something else; is that right?  In the 
meantime, the person has gotten the education?
	MR. HALL.  No, sir.  No, sir.  On the education, we recently submitted our 
biannual report to Congress on the Montgomery GI Bill.  And this is the way it 
works.
	If you do not complete your obligation and you have used your benefits, we 
recoup the money from you.  And in that report, we have the amount of money and 
we are recouping it now.
	So you cannot just take the Montgomery GI Bill and say, oops, at the end 
of four years, I want to leave.  If you do not serve that time, we recoup that 
money from you and we are actively doing that and have recouped an amount from 
the people that did not meet their obligation.
	So you do not get off freely.  You must -- 
	MR. BILIRAKIS.  Okay.  You are actively recouping it, but do you have to 
go to court on it?
	MR. HALL.  No.  We go to them and say you owe us that amount of money and 
obviously we take that out of their paycheck or they pay it, but we do recoup 
it.
	MR. BILIRAKIS.  Okay.  Well, that is good to hear.
	Well, gentlemen and lady -- is there anything more?  Apparently the 
Chairman had a long list of questions here.  He asked me to continue receiving 
the answers to the one item and then proceeded to talk about a variety of items.
	So he has a number of others and I know he is going to submit them to you 
in writing.  But they are very important to him.  He spent an awful lot of time 
on this subject and we discussed it at length when we discussed the budget a 
couple of times during the last two or three weeks.
	Well, I am going to ask this question, but I think I am going to ask you 
to respond to it in writing.  To the Reserve chiefs, I guess, many states 
provide significant education benefits for members of the National Guard.  
However, members of the Reserves did not qualify for these benefits even though 
they may reside and drill in a State.  Darn good point.
	So do you see an inequity there and how would you remedy that inequity?
	Now, again, in the interest of time and whatnot, that is a very 
significant question and hopefully -- and it is a very good point -- hopefully 
you can think about that and maybe respond to the Committee in writing if you 
would within what period of time?  Okay.  They will send it to you.
	All right.  Thanks so much.  I think we will just go ahead and adjourn the 
hearing at this point in time.  You have been very helpful.
	And, again, I do feel very strongly about VEAP.  I may be wrong.  If I am, 
I would appreciate your letting us know.  But any comments you may have on that, 
you might submit to the Committee along maybe with a copy to me or whatever the 
case may be because I do not want to do the wrong thing.  But at the same time, 
I just think that there is an area there that -- talking about inequity, there 
is an area of inequity there.
	Thank you very much.  The hearing is adjourned.
	[The statement of Joseph F. Sharp, Jr. appears on p. 100]
	
	[Whereupon, at 1:15 p.m., the Committee was adjourned.]
    

</pre></body></html>
